May 18, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Obstacles to Collection of Millions in Medicare Overpayments (A-04-10-03059)

The attached final report provides the results of our review of the Centers for Medicare &
Medicaid Services efforts to recover Medicare overpayments identified through Office of
Inspector General (OIG) audits.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-04-10-03059 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 OBSTACLES TO COLLECTION OF
        MILLIONS IN
  MEDICARE OVERPAYMENTS




                       Daniel R. Levinson
                        Inspector General

                           May 2012
                         A-04-10-03059
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Presidential Memorandum entitled Finding and Recapturing Improper Payments
(75 Fed. Reg. 12119 (March 15, 2010)) directs agencies to use every tool available to identify
and reclaim the funds associated with improper payments that the Federal Government has made.
The memorandum notes that reclaiming these funds is a critical component of the proper
stewardship and protection of taxpayer dollars. Office of Management and Budget (OMB)
Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of
Improper Payments, part I, section L (2006), states that Federal agencies should take all
necessary steps to prevent, detect, and collect improper payments. The Department of Health
and Human Services (HHS) has identified Medicare as a program that may be susceptible to
significant improper payments pursuant to the Improper Payments Information Act of 2002 and
OMB Circular A-123, Appendix C, part I (2006). Title XVIII of the Social Security Act (the
Act) established Medicare, which provides health insurance coverage to people aged 65 and
over, people with disabilities, and people with end-stage renal disease. The Centers for Medicare
& Medicaid Services (CMS) administers Medicare.

Pursuant to the Inspector General Act of 1978, 5 U.S.C. Appendix 3 (IG Act), the Office of
Inspector General (OIG) was established to provide independent assessments of HHS programs
and operations, including CMS; help promote economy and efficiency; and keep the HHS
Secretary and Congress informed about problems and deficiencies in the administration of HHS
programs and operations. Under the IG Act, it is the “duty and responsibility” of an Inspector
General to conduct audits of agency expenditures. To fulfill this obligation, the HHS OIG
conducts audits of CMS, as well as CMS grantees and contractors, relating to Medicare
operations.

To recover questioned Medicare payments, the Medicare contractors must first reopen the
original payment determination. For “good cause,” a Medicare contractor may reopen a payment
determination at any time within 4 years of the date the original payment determination was
made (42 CFR § 405.980 (b)(2)). Once a payment determination has been reopened, the
contractor may then seek to recover the overpayment. Section 1870 of the Act governs the
recovery of overpayments. Section 1870(b) of the Act bars recovery from providers that are
“without fault” and deems a provider to be “without fault” 3 years after the year in which the
original payment was made. For purposes of this report, the time period for reopening and/or
recovering overpayments is referred to as the “statute of limitations.”

During the 30-month period ended March 31, 2009, OIG issued reports recommending that CMS
collect approximately $418 million in Medicare overpayments. In its written responses to these
reports, CMS did not agree to collect $2 million of the $418 million. This review focused on the
remaining $416 million that CMS agreed to collect, sometimes noting that it would collect in
accordance with its policies and procedures. This is referred to as the “sustained overpayment
amount” throughout this report.




                                                i
OBJECTIVE

Our objective was to determine the extent to which CMS had collected sustained overpayment
amounts identified in OIG audit reports.

SUMMARY OF FINDINGS

As of October 8, 2010, CMS had not collected the majority of overpayment amounts identified
in OIG audit reports. Of the 154 OIG audit reports with sustained overpayment amounts totaling
$416,287,546, CMS reported collecting $84,168,502. Specifically, CMS reported collecting the
full sustained amounts totaling $83,272,666 for 113 reports and partial sustained amounts
totaling $895,836 for 8 reports. However, CMS did not collect the remaining $332,119,044.
CMS’s collections were limited because of time constraints imposed by the statute of limitations
on overpayment collections. In addition, it did not provide its contractors with adequate
guidance for collecting overpayments and did not have an effective system for monitoring its
contractors’ collection efforts.

Furthermore, we could not verify the $84,168,502 that CMS reported collecting, and we
identified inaccuracies in the reported amount. These issues arose because CMS did not have
adequate systems for (1) documenting overpayment collections identified in OIG audit reports or
(2) detecting data entry errors. Therefore, CMS had no assurance that the overpayment
collections information that it reported to other parties was accurate.

RECOMMENDATIONS

We recommend that CMS:

   •   pursue legislation to extend the statute of limitations so that the recovery period exceeds
       the reopening period for Medicare payments;

   •   ensure that its Audit Tracking and Reporting System (ATARS) is updated to accurately
       reflect the status of audit report recommendations;

   •   ensure that CMS staff record collections information consistently in ATARS;

   •   collect sustained amounts related to OIG recommendations made after our audit period to
       the extent allowed under the law;

   •   verify that the $84,168,502 reported as collected has actually been collected; and

   •   provide specific guidance to its contractors concerning (1) the timeframe in which the
       contractor must take action to collect an overpayment, (2) how to report collections,
       (3) the type of documentation that the contractor must maintain to substantiate an
       overpayment collection, and (4) how to report reasons for not collecting overpayments.



                                                ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, in response to our first recommendation, CMS said that
it would explore the possibility of pursuing legislative proposals. CMS concurred with our
second, third, and sixth recommendations and discussed actions it had taken or planned to take to
implement them. CMS partially concurred with our fourth recommendation and did not concur
with our fifth recommendation.

In regard to our fourth recommendation, CMS said that it would collect only sustained amounts
in OIG recommendations that are for claims that can be reopened and that it would make
collections when it is cost beneficial to reopen and review the claims. CMS also said that it has
limited medical review resources and must focus reviews on the most “error-prone claims.”

We recognize that CMS has limited medical review resources. However, we do not believe that
CMS must always perform medical review to determine which claims were paid in error before
collecting overpayments.

To assist CMS in its collection efforts, we transmit, with every audit report, data containing the
population of claims from which a sample was reviewed. Providing these data significantly
limits the amount of additional work and resources necessary for CMS to identify the claims at
issue and to recover the related overpayments.

In regard to our fifth recommendation, CMS said that it has policies to ensure that Medicare
contractors accurately account for all overpayment collections and that, if a contractor reports
making a collection related to an OIG audit, CMS considers that report proof that a collection
has been made. CMS also said that it believed that OIG-identified overpayments were
accurately accounted for in CMS financial reports.

We do not agree that a contractor’s report proves that a collection has been made. We could not
verify the $84,168,502 that CMS reported collecting, and we identified inaccuracies in the
reported amount. Additionally, our audit identified inaccuracies in the ATARS data that CMS
used to prepare its financial reports.

CMS’s comments are included in their entirety as the Appendix.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Audit Resolution ..................................................................................................1
              Process for Concurring With Office of Inspector General
                Report Recommendations .................................................................................2
              Medicare Contractors ...........................................................................................3
              Reopening and Recovering Overpayments ..........................................................3
              Centers for Medicare & Medicaid Services’ Audit Recommendation
                Tracking ............................................................................................................3
              Health Care Fraud and Abuse Control Program Report ......................................4

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................4
               Objective ..............................................................................................................4
               Scope ....................................................................................................................4
               Methodology ........................................................................................................5

FINDINGS AND RECOMMENDATIONS ............................................................................5

          FEDERAL REQUIREMENTS ........................................................................................6

          UNCOLLECTED OVERPAYMENTS ...........................................................................6
              Majority of Overpayment Amounts Not Collected .............................................6
              Statute of Limitations ...........................................................................................8
              Inadequate Guidance and Monitoring ..................................................................8

          UNVERIFIABLE AND INACCURATE COLLECTIONS INFORMATION...............9
              Unverifiable Collections ......................................................................................9
              Inaccurate Collections Information in Centers for Medicare & Medicaid
               Services Audit Databases ...................................................................................10
              Inaccurate Collections Information Reported to Others ......................................10

          RECOMMENDATIONS .................................................................................................10

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
           AND OFFICE OF INSPECTOR GENERAL RESPONSE...........................................11
               Collect Sustained Amounts Related to Office of Inspector General
                Recommendations Made After Our Audit Period to the Extent
                Allowed Under Law ..........................................................................................11
               Verify That the $84,168,502 Reported as Collected
                Has Actually Been Collected ............................................................................12



                                                                    iv
OTHER MATTER.....................................................................................................................12

APPENDIX

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                 v
                                              INTRODUCTION

BACKGROUND

The Presidential Memorandum entitled Finding and Recapturing Improper Payments
(75 Fed. Reg. 12119 (March 15, 2010)) directs agencies to use every tool available to identify
and reclaim the funds associated with improper payments that the Federal Government has made.
The memorandum notes that reclaiming these funds is a critical component of the proper
stewardship and protection of taxpayer dollars. Office of Management and Budget (OMB)
Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of
Improper Payments, part I, section L (2006), states that Federal agencies should take all
necessary steps to prevent, detect, and collect improper payments. The Department of Health
and Human Services (HHS) has identified Medicare 1 as a program that may be susceptible to
significant improper payments pursuant to the Improper Payments Information Act of 2002 and
OMB Circular A-123, Appendix C, part I (2006).

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App. 3 (IG Act), the HHS Office of
Inspector General (OIG) provides independent assessments of HHS programs and operations,
including CMS; helps promote economy and efficiency; and keeps the HHS Secretary and
Congress informed about problems and deficiencies in the administration of HHS programs and
operations. Under the IG Act, it is the “duty and responsibility” of an Inspector General to
conduct audits of agency expenditures. To fulfill this obligation, the HHS OIG conducts audits
of CMS, as well as CMS grantees and contractors, relating to Medicare operations. During the
30-month period ended March 31, 2009, OIG issued reports recommending that CMS collect
approximately $418 million in Medicare overpayments. In its written response to these reports,
CMS did not agree to collect $2 million of the $418 million. This review focused on the
remaining $416 million, which CMS agreed to collect, sometimes noting that it would collect
overpayments in accordance with its policies and procedures. This is referred to as the
“sustained overpayment amount” throughout this report.

Audit Resolution

Overpayments identified by the OIG in audit reports are “questioned costs” as defined by
section 5(f)(1) of the IG Act. A “management decision” is defined by section 5(f)(5) of the
IG Act as the issuance of a final decision by a Federal agency concerning its response to an
Inspector General audit report findings and recommendations. Section 5(f)(3) of the IG Act
defines a “disallowed cost” as a questioned cost that a Federal agency has “sustained” in a
management decision. A “final action” is defined by section 5(f)(6) of the IG Act as the
completion of all actions that a Federal agency has concluded in its management decision are
necessary with respect to the findings and recommendations in an audit report.



1
  Title XVIII of the Social Security Act (the Act) established the Medicare program, which provides health
insurance coverage to people aged 65 and over, people with disabilities, and people with end-stage renal disease.
The Centers for Medicare & Medicaid Services (CMS) administers Medicare.


                                                         1
The Federal Acquisition Streamlining Act of 1994 (FASA), 2 as amended by the National
Defense Authorization Act for Fiscal Year 1996, 3 established statutory deadlines for the prompt
resolution of audit recommendations. FASA, as amended, requires Federal agencies to make
management decisions on all findings and recommendations in each Inspector General audit
report within 6 months after issuance. FASA also requires Federal agencies to complete a final
action on each management decision within 12 months of each Inspector General report. In
addition, section 8(a)(4) of OMB Circular A-50 Revised, Audit Followup, requires that agency
management maintain accurate records regarding the status of audit report recommendations
from resolution through corrective action.

Process for Concurring With Office of Inspector General Report Recommendations

Consistent with the requirements of the FASA, CMS policy states that all audit recommendations
in OIG reports should be resolved within 6 months of the report issuance date. As detailed in the
HHS Financial Accounting Policy Manual, section 10-41-V, CMS uses the OIG Clearance
Document (OCD) to report its management decisions and actions taken on both monetary and
nonmonetary recommendations. The OCD lists each audit report recommendation and indicates
CMS’s concurrence or nonconcurrence with each recommendation. In the case of a concurrence,
CMS describes the action it has taken or plans to take to address the recommendation.

The OCD reflects CMS’s final management decision as shown in its formal response to each
audit report. In the case of recommendations to collect overpayments, CMS may concur with the
recommendation but elect to sustain an amount that differs from the amount recommended for
collection. When concurring with a recommendation to collect overpayments, CMS sometimes
stated on the OCD that it would recover the overpayments “consistent with the Agency’s policies
and procedures.” CMS showed the amount that it agreed to recover as a sustained amount on the
OCD. CMS considers recommendations to be cleared when it creates and submits the completed
OCD to OIG and OIG accepts it.

According to the HHS Financial Accounting Policy Manual, section 10-41-V part 1, G, the CMS
“originating official” and an “approving official” sign the OCD to certify that it represents
CMS’s official position. OIG uses these OCDs to determine the final disposition of OIG audits.
OIG also uses the information in the OCDs for reporting to Congress.

CMS categorizes OIG audit reports as either internal or external reports. Internal reports are
issued to the CMS Administrator, and officials in the CMS Central Office in Baltimore,
Maryland, resolve the associated recommendations and prepare the OCD. External reports are
issued to parties other than the CMS Administrator (e.g., Medicare contractors, specific
physicians, and hospitals), and officials in CMS’s Kansas City regional office resolve the
associated recommendations and prepare the OCD.




2
    P.L. No. 103-355 § 6009.
3
    P.L. No. 104-106 § 810.

                                                2
Medicare Contractors

CMS has delegated to Medicare contractors the responsibility for reopening and recovering most
Medicare overpayments identified in OIG reports. 4 CMS sometimes instructs the Medicare
contractors via the Joint Signature Memorandums (JSM) to follow applicable recovery rules in
Federal regulations and to consider the costs and benefits of recovery when initiating collection
of overpayments. 5

Reopening and Recovering Overpayments

Period for Reopening Overpayments

To recover questioned Medicare payments, the Medicare contractors must first reopen the
original payment determination. Section 1869(b)(1)(G) of the Act and 42 CFR part 405,
subpart I, govern the reopening process. For “good cause,” a Medicare contractor may reopen a
payment determination at any time within 4 years of the date the original payment determination
was made (42 CFR § 405.980 (b)(2)).

Period for Recovering Overpayments

Once a payment determination has been reopened, contractors may then seek to recover the
overpayment from providers and suppliers. Section 1870 of the Act governs the recovery of
overpayments. The Secretary of HHS has interpreted section 1870(b) of the Act as barring the
recovery of overpayments from providers that are “without fault.” Section 1870(b) of the Act
also states that a provider is deemed to be without fault 3 years after the year in which the
original payment was made unless there is “evidence to the contrary.” For purposes of this
report, the time period for reopening and/or recovering overpayments is referred to as the
“statute of limitations.”

Centers for Medicare & Medicaid Services’ Audit Recommendation Tracking

CMS uses the Audit Tracking and Reporting System (ATARS) to monitor the status of OIG
recommendations. CMS manually enters collections data that it receives from Medicare
contractors into ATARS periodically during the year and at the end of the fiscal year (FY).
According to the ATARS User Manual, ATARS is used to generate semiannual reports
summarizing CMS’s collection activities during the immediately preceding 6-month period.
CMS categorizes the collection information that it enters into ATARS as costs that were
recovered through collection, offset, or property in lieu of cash. Additionally, ATARS provides
the status of OIG recommendations—both monetary and nonmonetary—during the reporting
period.



4
 The CMS Central Office is responsible for collecting overpayments related to the Medicare Advantage and
Medicare prescription drug programs.
5
    Chapter 3 of the Medicare Financial Management Manual provides additional collection guidance to contractors.

                                                         3
Health Care Fraud and Abuse Control Program Report

To help combat fraud and abuse in health care programs such as Medicare and Medicaid,
Congress enacted the Health Care Fraud and Abuse Control (HCFAC) program as part of the
Health Insurance Portability and Accountability Act of 1996 (HIPAA). 6 CMS, HHS, and the
Department of Justice (DOJ) jointly administer the HCFAC program. HIPAA requires that HHS
and DOJ issue a joint annual report (HCFAC report) to Congress on (1) amounts deposited to the
Federal Hospital Insurance Trust Fund pursuant to HIPAA (also known as HCFAC deposits) for
the previous FY and the source of those amounts and (2) amounts appropriated from the
Medicare Trust Fund for HCFAC activities each year and the justification for the expenditure of
those amounts. The amount of Medicare overpayments collected based on OIG-recommended
audit disallowances has historically been included in the HCFAC report and is a major element
reported by HHS.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the extent to which CMS had collected sustained overpayment
amounts identified in OIG audit reports.

Scope

During the 30-month period ended March 31, 2009, OIG issued reports recommending that CMS
collect approximately $418 million in Medicare overpayments. Our review focused on the $416
million in Medicare overpayments that CMS had sustained in OCDs. We selected OIG audit
reports with recommendations to collect overpayments greater than $1,000 that were issued
during FYs 2007 (38 reports) and 2008 (65 reports) and the first 6 months of FY 2009 (51
reports) to CMS, CMS contractors, or Medicare providers. We chose this period to account for
the time that it takes CMS to make management decisions and to collect overpayments. Of the
154 audit reports we analyzed with recommendations for overpayment collections, 145 were
external reports (which are ultimately resolved by a CMS regional office) with recommendations
to collect sustained overpayments totaling $112,898,159 and 9 were internal reports (which are
ultimately resolved by the CMS headquarters office) with recommendations to collect sustained
overpayments totaling $303,389,387.

To determine the amounts CMS collected, we reviewed an ATARS report as of June 6, 2010, for
each of the 145 external OIG reports. For each of the nine internal reports, we reviewed an
ATARS report as of October 8, 2010. We also obtained updated ATARS reports that reflected
additional amounts collected as of July 31, 2011, for both internal and external reports.

Our review did not require an understanding or assessment of CMS’s overall internal control
structure. We limited our review of CMS’s internal controls to gaining an understanding of its


6
    P.L. No. 104-191, § 201, 110 Stat. 1936, 1992 (Aug. 21, 1996).


                                                          4
controls over the collection of overpayments that were based on OIG audit recommendations.
We did not perform a review of the HHS Agency Financial Report (AFR) or the HCFAC report.

We performed fieldwork at the CMS regional offices in Kansas City, Missouri; Atlanta, Georgia;
and Chicago, Illinois, and the offices of selected Medicare contractors from April 2010 through
February 2011. We also performed fieldwork at OIG and CMS Central Offices in Baltimore and
the OIG Atlanta regional office through February 2012.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal requirements;

   •   reviewed CMS policies and procedures for resolving audit recommendations and
       collecting overpayments;

   •   interviewed selected CMS central office staff, CMS regional office staff, and Medicare
       contractors concerning their processes for audit resolution, including the reporting and
       collecting of overpayments;

   •   reviewed audit resolution and overpayment collection documentation pertaining to the
       154 audit reports provided by CMS central office staff, regional office staff, and
       Medicare contractors to determine whether reported overpayment collections had actually
       been made;

   •   analyzed the OCDs, ATARS reports, and corrective action plans for each of the audits to
       determine CMS’s reason for not collecting the overpayments; and

   •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

As of October 8, 2010, CMS had not collected the majority of overpayment amounts identified
in OIG audit reports. Of the 154 OIG audit reports with sustained overpayment amounts totaling
$416,287,546, CMS reported collecting $84,168,502. Specifically, CMS reported collecting the
full sustained amounts totaling $83,272,666 for 113 reports and partial sustained amounts
totaling $895,836 for 8 reports. However, CMS did not collect the remaining $332,119,044.
CMS’s collections were limited because of time constraints imposed by the statute of limitations
on overpayment collections. In addition, it did not provide its contractors with adequate

                                                5
guidance for collecting overpayments and did not have an effective system for monitoring its
contractors’ collection efforts.

Furthermore, we could not verify the $84,168,502 that CMS reported collecting, and we
identified inaccuracies in the reported amount. These issues arose because CMS did not have
adequate systems for (1) documenting overpayment collections identified in OIG reports or (2)
detecting data entry errors. Therefore, CMS had no assurance that the overpayment collections
information that it reported to other parties was accurate.

FEDERAL REQUIREMENTS

Pursuant to the Federal Claims Collection Act of 1966 (FCCA), 7 as amended, and 45 CFR
sections 30.2 and 30.10, CMS must aggressively and timely collect all overpayments and audit
disallowance determinations. Chapter 3, section 10 of the Medicare Financial Management
Manual states that, once a Medicare contractor determines that an overpayment has been made, it
must attempt recovery of the overpayment in accordance with CMS regulations.

Section 1869(b)(1)(G) of the Act and 42 CFR part 405, subpart I, govern the reopening process.
For “good cause,” a Medicare contractor may reopen a payment at any time within 4 years of the
date the original payment was made (42 CFR § 405.980 (b)(2)). Section 1870 of the Act governs
the recovery of overpayments. Section 1870(b) of the Act bars recovery from providers that are
“without fault” at any time and deems providers to be “without fault” 3 years after the year in
which the original payment was made unless there is “evidence to the contrary.” OMB Circular
A-50 Revised, Audit Followup, requires that agency management maintain accurate records
regarding the status of audit report recommendations from resolution through corrective action.

UNCOLLECTED OVERPAYMENTS

Majority of Overpayment Amounts Not Collected

As of October 8, 2010, CMS had not collected the majority of overpayment amounts that OIG
recommended for collection during the 30-month period ended March 31, 2009. During this
period, OIG recommended that CMS collect $417,636,708 in overpayments. CMS sustained
$416,287,546. Of this amount, CMS reported that it had collected only $84,168,502 (20 percent)
and that the remaining $332,119,044 (80 percent) was uncollected (Table 1).




7
    FCCA, P.L. No. 89-508 § 3(a). This provision is codified at 31 U.S.C. § 3711(a)(1).

                                                           6
           Table 1: Medicare Overpayments—Reported as Collected and Uncollected

                                         Internal 8                  External
                                     as of Oct. 8, 2010         as of June 6, 2010                 Total
           Description                  (9 Reports)               (145 Reports)                (154 Reports)
     Sustained Amounts                  $303,389,387              $112,898,159               $416,287,546
     Collected Amounts                    12,781,050                71,387,452                 84,168,502 9
     Uncollected Balance                $290,608,337                $41,510,707              $332,119,044 10

Although CMS officials gave various reasons for not collecting sustained overpayments, CMS’s
records did not always contain explanations. Therefore, we were unable to determine why some
of the OIG-recommended amounts had not been collected.

For 113 reports, CMS reported collecting the full amounts of the sustained overpayments. As of
October 8, 2010, CMS had not collected all sustained overpayments related to the remaining 41
of the 154 11 reports covered by our review:

      •   For eight reports with sustained overpayments totaling $240,738,364, CMS reported
          $895,836 in overpayment collections. The documentation CMS provided did not explain
          why the contractors did not collect the balance of $239,842,528.

      •   For 21 reports with sustained overpayments totaling $28,401,335, CMS reported no
          overpayment collections and gave us no explanations.

      •   For the remaining 12 reports with sustained overpayments totaling $63,875,181, CMS
          gave us the following reasons for not collecting the overpayments:

          o For 10 with sustained overpayments totaling $61,598,979, the statute of limitations
            for collecting the sustained overpayments had expired.

          o For two with sustained overpayments totaling $2,276,202, the providers were no
            longer in business, and the contractors could not collect the overpayments.



8
 Internal reports are issued to the CMS Administrator, and external reports are issued to parties other than the CMS
Administrator (e.g., Medicare contractors, specific physicians, and hospitals).
9
 CMS collected $1,690,635 in excess of the sustained amounts in addition to the $84,168,502 that it reported as
collected based on OIG recommendations.
10
  A total of $236,170,028 in sustained amounts from two reports makes up the majority (71 percent) of the
uncollected balance.
11
 We determined the collection status of each report based on our review of CMS’s comments in ATARS and the
OCDs.


                                                         7
Table 2 provides a breakdown of the $332,119,044 of uncollected overpayments by reason and
type of report.

                    Table 2: CMS-Reported Reasons for Uncollected Amounts

                                                Internal                 External
                                           as of Oct. 8, 2010       as of June 6, 2010            Total
                                              (7 reports)              (34 reports)            (41 reports)
 No Reason Provided in ATARS
 or OCDs
 (These amounts remained open                 $241,085,719               $27,158,144         $268,243,863
 for collection. 12)                             (4 reports)              (25 reports)         (29 reports)
 Reopening and Recovery
 Periods Beyond Statute of                       49,522,618                12,076,361           61,598,979
 Limitations                                     (3 reports)                (7 reports)        (10 reports)
                                                           0                 2,276,202            2,276,202
 Provider No Longer in Business                                             (2 reports)          (2 reports)
     Total                                    $290,608,337               $41,510,707         $332,119,044

As of July 31, 2011, CMS reported that it had collected an additional $13,147,884, or 5 percent,
of the $268,243,863 related to the 29 reports categorized as open for collection since the June
and October 2010 ATARS reports. (These additional collections are not reflected in Table 2.)

Statute of Limitations

Although CMS reported that $268,243,863 remained in open collection status, we determined
that the reopening and recovery periods imposed by the statute of limitations had now expired
for these overpayments.

Inadequate Guidance and Monitoring

CMS delegated responsibility for collecting sustained overpayments to Medicare contractors and
provided guidance in the JSM. However, this guidance was not sufficient to ensure that
contractors (1) documented reasons for not collecting overpayments and (2) reported the status
of their collection efforts to CMS. The guidance did not include instructions on maintaining
adequate documentation or reporting collections to CMS. In addition, CMS did not adequately
monitor contractor collection efforts or ensure that contractors were consistent in their collection
efforts. CMS did not require supporting documentation from the contractors to verify how much
they had actually collected or to determine whether they had made reasonable efforts to collect
the overpayments. Moreover, CMS accepted without independent verification whatever form of
support the contractors provided.


12
   According to the 2010 AFR, CMS listed the uncollected balance on the two reports listed in footnote 10 as being
in active collection status although the recovery period had expired. According to the 2011 AFR, CMS listed the
balances on these two reports, which constitute 71 percent of the $332,119,044 uncollected balance, as being beyond
the statute of limitations.

                                                        8
When concurring with recommendations to collect overpayments, CMS sometimes stated on the
OCD that it would recover the overpayments “consistent with the Agency’s policies and
procedures.” As noted above, CMS reported that $268,243,863 remained in open collection
status in ATARS even though the reopening and recovery periods had expired. CMS did not
always update this information in ATARS. As a result, CMS did not have accurate records
regarding its collection efforts, which is contrary to OMB Circular A-50.

UNVERIFIABLE AND INACCURATE COLLECTIONS INFORMATION

We could not verify the $84,168,502 that CMS reported collecting, and we identified
inaccuracies in the reported amount. Because of these issues, CMS had no assurance that the
overpayment collections information that it reported to other parties was accurate.

Unverifiable Collections

We visited 3 of the 11 CMS regional offices. We selected these three regional offices because
they had reported the majority of the collected amounts for external reports. Two of the three
offices reported collecting approximately $30,730,408 of $37,865,992 in overpayments
associated with external reports. However, we were unable to verify that the $30,730,408 CMS
reported as collected had actually been collected or from which entities. Contractor officials in
these regions gave us various documents (e.g., letters, system screen prints of adjusted claims,
spreadsheets with claim adjustments listed, and email) to support collections. CMS stated that a
phone conversation between CMS and the contractor or an email from the contractor stating that
collections had been made was sufficient to support that an overpayment collection had been
made. These types of documentation might have shown that an adjustment had been made, but
without specific details, we could not match these adjustments to a corresponding OIG
recommendation. Therefore, we could not verify that CMS had collected the overpayments
identified in the OIG recommendation.

We also could not verify the accuracy of the overpayment collections that CMS reported for the
nine internal reports. CMS had reported collections of $12,781,050 of the $303,389,387 in
sustained overpayments. As with the external reports, the documentation that CMS gave to us
was not sufficient for us to verify that the entire $12,781,050 had been collected or from which
entities.

We could not verify the amounts that CMS had reported as collected because CMS did not (1)
routinely require supporting documentation from the contractors to verify whether the
contractors had actually collected the OIG-recommended overpayments or (2) validate the
information it had received. Moreover, for some of the reports we reviewed, the Medicare
contractor had been replaced and did not leave historical information about collections for the
new contractor.




                                                9
Inaccurate Collections Information in Centers for Medicare & Medicaid Services Audit
Databases

CMS informed us that some of the information about reported collections was inaccurate
because CMS staff members were inconsistent in how they recorded collections in ATARS.
Instead of recording incremental collections, CMS staff members recorded cumulative
collections, resulting in overstated yearly totals in ATARS. CMS gave us a spreadsheet that
showed ATARS collections were overstated by $24 million during FYs 2006 through 2011. 13
Information on overpayment collections in ATARS is routinely communicated outside HHS in
various reports, including HHS’s annual AFR. However, because of the inaccuracies in CMS’s
audit databases, these reports contained inaccurate information.

We attempted to obtain detailed support from CMS for the $24 million it claimed it overstated.
Although CMS provided the number of audits affected and the total dollars, it did not provide the
overstatement amount by year, which would have enabled us to verify the accuracy of the
overstated amount.

Inaccurate Collections Information Reported to Others

Because collections information in ATARS was unverifiable and inaccurate, CMS had no
assurance that the information about overpayment collections that it reported to other parties for
the 30-month period ended March 31, 2009, was accurate. Because multiple parties use
Medicare payment data for various payment calculations and analyses, it is important that the
data be accurate. Parties that use Medicare payment data include CMS’s Office of the Actuary
and the Medicare Payment Advisory Commission. 14 The Trustees of the Medicare Trust Fund
also use Medicare data when preparing the annual report of the financial status of the Medicare
Trust Fund.

RECOMMENDATIONS

We recommend that CMS:

     •   pursue legislation to extend the statute of limitations so that the recovery period exceeds
         the reopening period for Medicare payments;

     •   ensure that ATARS is updated to accurately reflect the status of audit report
         recommendations;

     •   ensure that CMS staff record collections information consistently in ATARS;

13
  Of the $24 million, CMS identified $586,776 applicable to the three internal reports covered by this audit. The
remaining $23,349,391 pertained to audits that are outside the scope of this review. These three ATARS corrections
are included in the $84 million that CMS reported as collected.
14
 As required by Congress, the Medicare Payment Advisory Commission reviews and makes recommendations for
Medicare payment systems.


                                                       10
   •   collect sustained amounts related to OIG recommendations made after our audit period to
       the extent allowed under the law;

   •   verify that the $84,168,502 reported as collected has actually been collected; and

   •   provide specific guidance to its contractors concerning (1) the timeframe in which the
       contractor must take action to collect an overpayment, (2) how to report collections,
       (3) the type of documentation that the contractor must maintain to substantiate an
       overpayment collection, and (4) how to report reasons for not collecting overpayments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, in response to our first recommendation, CMS said that
it would explore the possibility of pursuing legislative proposals. CMS concurred with our
second, third, and sixth recommendations and discussed actions it had taken or planned to take to
implement them. CMS partially concurred with our fourth recommendation and did not concur
with our fifth recommendation. CMS’s comments are included in their entirety as the Appendix.

Collect Sustained Amounts Related to Office of Inspector General Recommendations Made
After Our Audit Period to the Extent Allowed Under Law

Centers for Medicare & Medicaid Services Comments

CMS said that it would collect only sustained amounts in OIG recommendations that are for
claims that can be reopened and that it would make collections when it is cost beneficial to
reopen and review the claims. CMS also said that it has limited medical review resources and
must focus reviews on the most “error-prone claims.”

Office of Inspector General Response

We recognize that CMS has limited medical review resources. However, we do not believe
CMS must always perform medical review to determine which claims were paid in error before
collecting overpayments. For audits of individual entities, such as specific physicians and
hospitals, CMS may collect the amounts identified as being in error without expending
significant resources.

For cases of internal audits that reviewed a national sample of claims or external audits
conducted at the contractor level, CMS would need to determine which claims were paid in error
before recovering overpayments. To assist CMS in these collection efforts, we transmit, with
every audit report, data containing the population of claims from which a sample was reviewed.
Providing these data significantly limits the amount of additional work and resources necessary
for CMS to identify the claims at issue and to recover the related overpayments.




                                               11
Verify That the $84,168,502 Reported as Collected Has Actually Been Collected

Centers for Medicare & Medicaid Services Comments

CMS said that it has policies to ensure that Medicare contractors accurately account for all
overpayment collections. CMS also said that it believed that OIG-identified overpayments were
accurately accounted for in CMS financial reports. CMS further said that if a contractor reports
making a collection related to an OIG audit, CMS considers that report proof that a collection
has been made. CMS also said that because of the age of the reports, records may no longer be
available and that thus it would be extremely difficult to verify this information at this time.

Office of Inspector General Response

We do not agree that a contractor’s report proves that a collection has been made. As discussed
in the “Unverifiable and Inaccurate Collections Information” section on page 9 of this report, we
could not verify the $84,168,502 that CMS reported collecting, and we identified inaccuracies in
the reported amounts. Additionally, our audit identified inaccuracies in the ATARS data that
CMS used to prepare its financial reports. Therefore, we do not agree that CMS accurately
accounted for OIG-identified overpayments, and we continue to recommend that CMS verify
that the $84 million it reported as collected has actually been collected.

                                       OTHER MATTER

Effective March 23, 2010, The Patient Protection and Affordable Care Act 15 added section
1128J(d), “Reporting and Returning Overpayments,” to the Act. This section requires a person
who has received an overpayment to report and return the overpayment within 60 days after the
date the overpayment was identified or, if applicable, 60 days after the corresponding cost report
is due. This requirement may affect overpayment recoveries related to OIG audit findings, and
we plan to work with CMS as it implements this requirement.




15
     P.L. No. 111-148 § 6402(a).

                                                12
APPENDIX
                                                                                                                                    Page 10f4


APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS


       #,:Jo,o."c~...,   ..,..


   (     ~ .                     DEPARTMENT OF HEALTH & HUMAN SERViCES                                  Centers for Medicare & Medicaid Services


       ':::Z~                                                                                           Administrator
                                                                                                        Washington, DC 20201



                          DATE:         At"'R J 6 2012
                          TO:            Daniel R. Levinson
                                         I

                          FROM:


                          SUBJECT: 	 Oftice of Inspector General (OIG) Draft Report: Obstacles to Collection of
                                     Millions in Medicare Overpayments (A-04-JO-03059)


                          Thank you for the opportunity to review and comment on the OIG re vised draft report titled
                          "Obstacles to Collection of Mill ions in Medicare Overpayments" (A-04-1 0-03059). GIG set out
                          to determine the extent to which Centers for Medicare & Medicaid Services (eMS) had collected
                          approximately $416 million in overpayments identified in OIG audit reports during a 3D-month
                          period ending March 3 1, 2009.

                          The eMS appreciates the time and resources DIG has invested to review thi s issue. eMS is
                          committed to using its resources to collect identified overpayments in a manner that is cost
                          effective and ensures that eMS complies with the statutory and regulatory framework of
                          overpayment co llections.

                          Each year eMS receives a number of reports from DIG that identi fy issues involvi ng improper
                          payments. These reports often invo lve recommend ations to co ll ect overpayments in varying
                          amounts. Some of these are based on actual claim reviews performed by D IG , whi le others are
                          based on extrapolated va lues projected by D IG.

                          The eMS is committed to collecting the overpayments identified in DIG audit reports. OIG
                          reports that more than $332 million in overpayments identified in DIG audit reports remains
                          uncollected by eMS (Table 2. page 8). However, a significant majority of these overpayments
                          primarily relates to claims that exceed the period for reopening or recovery. For example, two
                          internal DIG reports accounted for $236.8 million, which was 81 percent of the total $290.6
                          million in uncollected overpayments. Both of these DIG reports were issued after tht: cla ims
                          review or recovery periods were over. Specifically, one report was iss ued in June 2007 and the
                          claim review period was 1999 - 2003. The second report was issued in January 2008 and the
                          claims review period was 200 I - 2003. In both cases, eMS' abi lity ( 0 recover the overpayment's
                          was affected by the four-year reopenjng limitati on in 42 C .F.R. §405.980(b), and the limitations
                          on overpayment recovery in Section 1870 of the Social Security Act (collective ly referred to in
                          the report as the "statute of limitations" provisions).
                                                                                                   Page 2 of4




Page 2 - Daniel R. Levinson


In addition, al Ihe time OIG conducted its review and identified overpayments that CMS had not
recovered, our Audit Tracking and Reporting System (ATARS) reported that $268.2 million
remained in open collection status. In researching these amounts, it was discovered that the
reopening and recovery periods had actually expired for most, if not aU, of these overpayments.
While e MS had failed to update and close the overpayments in Ihe AT ARS system, CMS has
begun taking steps to improve ATARS so that it will accurately reflect the status of
overpayments identified by OIG audits.

In order to address the time between OIG's review of claims and reporting to eMS, we
established a workgroup and held several discussions with DIG on ways to ensure that the
information re lated to the actual claims is provided to eMS in a timely manner. This would
allow contractors to begin collecting these amounts as soon as possible. eMS has also begun
efforts to improve the overall tracking and reporting process of these overpayments.

We have reviewed the report and have responded to your recommendations.

OIG Recommendation

Pursue legislation to extend the statute of limitations so that the recovery period exceeds the
reopening period for Medicare payments.

eMS Response

' The eMS will explore the possibility of legislative proposals thaI would extend the statute of
  limitations.

OIG Recommendation

Ensure its Audit Tracking and Reporting System (ATARS) is updaled to accurately reflect the
status of audit report recommendations.

eMS Response

The eMS concurs with this recommendation. eMS has begun a review of its reporting in the
ATARS system. We will make necessary changes to reflect the outcomes of the recovery work
performed. Going forward e MS will ensure that corrective action plans and recoveries are
clearly described and reported.
                                                                                                      Page 3 of4




Page 3 - Daniel R. Levinson


OIG Recommendation

Ensure that eMS staff record collections information consistently in ATARS.

eMS Response

The eMS concurs with this recommendation. It is eMS' intent to consistently and accurately
record collection efforts. Whenever OIG recommends that eMS collect overpayments, eMS
will record the amounts it sustains for collection.

OIG Recommendation

Collect sustained amounts related to OIG recommendations made after our audit period to the
extent allowed under law.

eMS Response

The eMS partially concurs with this reeommendalion. eMS will collect only sustained amounts
in 010 recommendations that are for claims that can be reopened and where it is cost beneficial
to reopen and review claims. eMS has limited medical review resources and must focus reviews
on the most error-prone claims. Due to these resource constraints, CMS must prioritize our
review efforts. Howeve r, eMS wilJ continue to consider issues identified in OIG reports when
developing medical review and recovery audit strategies.

OIG Recommendation

Verify the portion ofthe $84,168,502 reported as collected has actually been collected.

eMS Response

The CMS does not concur with this recommendation. eMS requires Medicare contractors to
separately report overpayments related to OIG reports in order to track this infonnation in Clarity
and ATARS. If a contractor reports a collection related to an OIG audit, then eMS considers
thi s proof and uses this information to manually update Clarity and ATARS 10 indicate that a
collection has occurred. Due to the age of the reports, records may no longer be available and
thus, it would be extremely difficult to verify this information at this time.

It should be noted that eMS has policies in place to ensure that Medicare contractors accurately
account for all overpayment collect.ions, including those from OIG reports. eMS believes that
OIG-identified overpayments are accurately accounted for in eMS financial reports. eMS
performs bank reconciliations and reviews financial reports to ensure its accuracy and
completeness. CMS will continue to improve its tracking and reporting of the collections related
to actual sampled overpayment claims. Furthermore, CMS will explore ways to automate the
tracking ofOIG related collections in the future.
                                                                                                    Page 4 of4




Page 4 - Daniel R. Levinson


OIG Recommendation

Provide specific guidance to its contractors concerning (1) the time frame in which the comractor
must take action to collect an overpayment, (2) how to report collections, (3 ) the type of
documentation that the contractor must maintain to substantiate an overpayment collection, and
(4) how to report reasons for not collecting overpayments.

eMS Response

The eMS concurs with thi s recommendation. eMS is reviewing processes to improve the
tracking. reporting, and documenting of collection activities for OIG-identified overpayments.
eMS has already begun to revise the reporting and tracking processes for OIG recommendations,
and timeframes have been established for closing those recommendations if overpayments 3re
detennined to be uncollectible.

The eMS has also expanded its reporting requirements and provided additional direction to
contractors related to closing audit reports. eMS is more closely monitoring contractors'
responses to ensure that quarterly reporting is comp leted timely and accurately, and that
contractors provide sufficient documentation to substantiate collection amounts. eMS will
continue to improve its tracking and reporting of the collections related to actual sampled
overpayment claims. eMS and OIG have worked to improve the timeliness with which eMS
receives data from OlG. This improvement should allow eMS to provide OIG-identified claim
overpayments to the contractors sooner in order to begin the collection process. In addition,
eMS will work to ensure that the contractors provide explanations for items that cannot be
collected. eMS is currently exploring ways to automate the tracking of collections related to
OIG reports in order to eliminate the manual input process.
